U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




       International Trade Administration

        Import Administration Has Met Most
Statutory Deadlines on Antidumping Reviews,
        But Management Attention Is Needed
                             In Other Areas


          Final Survey Report No. IPE-16952/March 2005




                            PUBLIC
                            RELEASE



          Office of Inspections and Program Evaluations 

U.S. Department of Commerce                                                                                   Final Report IPE-16952

Office of the Inspector General                                                                                          March 2005 





                                                  TABLE OF CONTENTS 



EXECUTIVE SUMMARY ............................................................................................................. i


BACKGROUND ............................................................................................................................ 1 


OBJECTIVES, SCOPE, AND METHODOLOGY........................................................................ 5 


OBSERVATIONS AND CONCLUSIONS ................................................................................... 6 


   I. 	 Most Statutory Deadlines Have Been Met, But Management and Administrative 

        Controls Should Be Strengthened To Help Ensure Continued Compliance....................... 6 


          A. 	 Most Statutory Deadlines Have Been Met................................................................. 6 

          B. 	 Management and Administrative Controls Should Be Strengthened ........................ 7 


   II.    Policies, Procedures, and Standards Need Improvement.................................................. 11 


          A. 	 Antidumping Manual Is Outdated and Causes Confusion....................................... 12 

          B. 	 Internal Operations Handbook Should Be Developed............................................. 12 

          C. 	 Standard for Verification Reports Is Needed........................................................... 13 


   III. Management of Official Files Needs Attention ................................................................ 14 


          A. 	 Case Files are Sometimes Incomplete Despite Regulatory Requirements .............. 15 

          B. 	 Case Files May Be Vulnerable To Fire.................................................................... 17 

          C. 	 New Document Management System Needed ........................................................ 19 


   IV. Computer Support Needs Restructuring ........................................................................... 20 


   V.     Training Program for Analysts Should Be Improved ....................................................... 21 


RECOMMENDATIONS.............................................................................................................. 24


APPENDIXES .............................................................................................................................. 26 


APPENDIX A: Types of Antidumping Administrative Reviews ................................................ 26 

APPENDIX B: Antidumping Investigation Process .................................................................... 27 

APPENDIX C: Administrative Review Process .......................................................................... 28 

APPENDIX D: Acronyms ............................................................................................................ 29 

APPENDIX E: Agency Response ................................................................................................ 30 

U.S. Department of Commerce                                                               Final Report IPE-16952

Office of the Inspector General                                                                      March 2005 





                                          EXECUTIVE SUMMARY 


The mission of Import Administration (IA) is to safeguard American industries and jobs against
unfair trade by determining if foreign products sold in the United States are being “dumped”—
sold below “normal value” — or subsidized by foreign governments. IA accomplishes this by
conducting investigations of foreign companies or governments at U.S. industry’s request.

IA, particularly its Antidumping and Countervailing Duty (AD/CVD) Operations, is an
organization in transition. An August 2004 reorganization consolidated AD/CVD operations
under one Deputy Assistant Secretary (DAS), but the bureau still is sorting out old issues left
from its previous organizational structure. One of the most significant issues, which the bureau
is still struggling to remedy, is the lack of consistency in its operations. This was one of the
concerns of Congress and the impetus for the reorganization.

In addition, communication between units was poor, and the agency had an institutional
reluctance to develop common standards, processes, and procedures for IA’s work. IA staff has
indicated that there is little time to reflect on how to improve the workflow or the bureau’s
training program. All resources currently are dedicated to meeting statutorily mandated
deadlines for determinations.

In September 2004, we conducted a survey of IA’s administrative review process for
antidumping petitions filed by U.S. companies in order to (1) determine whether IA was meeting
its statutory requirements; (2) analyze whether there were adequate policies, procedures, and
guidance in place; (3) identify trends and practices related to administrative reviews; and (4)
assess the adequacy of management tools and administrative controls used to manage
administrative reviews. We also sought to identify areas for future OIG program reviews. Our
specific findings are as follows:

Most Statutory Deadlines Have Been Met, But Management and Administrative Controls
Should Be Strengthened to Help Ensure Continued Compliance. We found that IA was
meeting its statutory deadlines for conducting annual administrative reviews for antidumping
cases most of the time. This represents a significant improvement since our 1993 review of IA
when we found that 32 percent of administrative reviews were late.1 We examined one case
record where a determination was issued 10 business days prior to the statutory deadline. We
also note that the bureau extends statutory dates if deadlines fall on weekends in the sample we
reviewed, although it has no written policy on this practice. We found four instances in our
sample of 40 cases out of 205 annual administrative reviews conducted in FYs 2003 and 2004
where IA extended its statutory deadlines by one or two days when they fell on a Saturday or
Sunday. The IA Chief Counsel’s Office acknowledges that under a strict interpretation of the
statute, IA does not have the flexibility that it currently exercises.




1
    IA's Investigations of Steel Industry Petitions, TTD-5541-4-001, OIG, December 1993


                                                          i
U.S. Department of Commerce                                                   Final Report IPE-16952

Office of the Inspector General                                                          March 2005 



IA has multiple management and administrative controls that make it possible to meet deadlines.
However, we found that those controls could be strengthened, such as by clearly delineating
management’s responsibilities and interim schedules and documenting the review process to
keep cases on track to meet statutory deadlines.

In addition, we found that the Case Management Database (CMD)— IA's primary system to
calculate and track statutory deadlines and provide status updates on cases— contained
erroneous information on three case records that we examined in our sample of 40 case records.
These errors affected the ability of the system to accurately calculate statutory deadlines.

The CMD also generates performance data that IA management uses to monitor its compliance
with the statute and includes in the Department’s Annual Performance Plan. However, we found
that the CMD reported as actual performance data the statutory deadlines or target dates rather
than the actual dates of signature for determinations. The system is based on the premise that the
determinations will be issued by the statutory deadline, which may not happen. IA’s sole
performance measure in the plan is the number of cases it completes within statutory
requirements. IA reports that it meets case deadlines 100 percent of the time, although the CMD
does not reconcile the statutory deadline date or target date against the actual signature dates for
determinations. As such, IA cannot be certain that it is always completing its cases on time
based on the report generated by the CMD. We noted four instances, as discussed above, when
IA took one to two extra days beyond its statutory deadline to make its determinations. If IA
wants to continue using the CMD to generate performance reports for the Department's Annual
Performance Plan, it needs to ensure that the report is based on actual signature dates rather than
target dates. There were other discrepancies in the CMD not related to statutory deadlines, such
as erroneous or incomplete information in case records. IA should ensure that information
entered into the CMD is accurate and complete and that the records are kept up-to-date.

Managers also are concerned that the IA Chief Counsel's office frequently does not update the
status of litigation on cases in the CMD system, which makes work on administrative reviews
difficult for analysts because litigation can affect the case proceedings. The Chief Counsel’s
office told us that it is working on a pilot project to provide the updates and hopes to begin
updating these records soon (see page 6).

Policies, Procedures, and Standards Need Improvement. IA has a manual, which includes
antidumping administrative reviews, that is used by its analysts and the public, but it does not
reflect actual current practice. IA also does not have adequate written internal guidance or an
internal operations handbook that gives its analysts systematic instructions on how to conduct an
administrative review. Such internal guidance is needed, in addition to the publicly available
manual, to spell out “how-to” details of handling cases and addressing important problems that
may occur in conducting the reviews. With no written, comprehensive, internal guidance,
analysts who encountered problems must ask managers for instructions or try to figure the
answers out themselves, which is time consuming and inefficient and can lead to inconsistent
treatment of similar issues. IA should update the antidumping manual and develop an internal
operations handbook. While we did not review the CVD administrative review process, we note
that there is no CVD manual for either the analysts or the public.



                                                 ii
U.S. Department of Commerce                                                                    Final Report IPE-16952

Office of the Inspector General                                                                           March 2005 



In addition, IA needs to adopt a standard template for the content and format for verification
reports and incorporate it into the internal operations handbook. Verification reports confirm
IA’s findings with respect to the accuracy and completeness of questionnaire responses from
foreign firms. We found that different offices have adopted different templates and styles for the
reports. Two predominant styles prevail in IA – a highly detailed format vs. an abbreviated
version with the basic findings. IA needs to adopt a common standard for verification reports,
which would improve consistency, quality, and efficiency (see page 11).

Management of Official Files Needs Attention. We found that IA does not adequately
maintain official case files, which are stored in the Central Records Unit (CRU). Files vary
greatly in terms of their completeness. Missing documents could negatively impact the
Department’s defense of an IA determination on duty margins should a case go to court.

For example, disks containing electronic media files, such as data sets and margin calculations,
are considered part of the official files but are stored in the Office of Information Technology.
IA’s internal policy, which is not being enforced, requires that its data sets and margin
calculations consistently be stored in this office. We found that 62.5 percent of 2003 case files
and 53.3 percent of 2004 case files in our sample of 24 out of the 40 case records we reviewed
were missing data sets and margin calculations.2 IA needs to ensure that all data and relevant
records are being stored in the CRU and the IT office.

We also found that the official files stored in the CRU in the basement of the Herbert C. Hoover
Building (Commerce headquarters) are vulnerable to fire because the CRU, which has only two
fire extinguishers, does not have an automatic fire suppression system. Departmental
Administrative Order (DAO) 205-1 on vital records3 requires that official files be safeguarded
through duplication. In addition, Federal Preparedness Circular 65 on the continuity of
operations (COOP), dated June 15, 2004, calls for federal agencies to have access to electronic
and hard copies of vital records in case of an emergency. The International Trade
Administration recently purchased an electronic document management system for IA, which
would facilitate duplication of official case files. IA estimates the project will be completed by
late 2005. IA should take the actions necessary to comply with vital records regulations by
implementing the system as soon as possible (see page 14).

Computer Support Needs Restructuring. IA’s computer support staff is still divided into three
teams reporting to three different managers based on the previous IA organizational structure.
Having the computer support staff report to one manager could help improve consistency in
service and support and facilitate the best allocation of resources. IA should review the current
structure of its computer support staff and determine how the staff can best meet the needs of the
organization in light of the bureau’s recent reorganization (see page 20).



2
  We did not include cases that were rescinded, as the IT office does not keep data sets and calculations on those 

cases. 

3
  The definition of vital records includes “those records essential to protect the rights and interests of the Department

and of individuals affected by its activities.” 



                                                           iii
U.S. Department of Commerce                                                     Final Report IPE-16952

Office of the Inspector General                                                            March 2005 



Analyst Training Program Should Be Improved. IA offers three training modules, primarily
for new analysts: new analyst training, verification, and statistical analysis software training.
There is no formalized training program for existing analysts. New analysts say they are
overwhelmed by the amount of information given in the existing training classes. More
experienced analysts complain about a lack of continuing professional and career development
training. IA should reassess its training program to ensure that it meets the needs of its analysts,
particularly in light of the large number of new recruits that will need to be hired to fill vacancies
in the bureau (see Figure 6 and page 21).

Issue on the Horizon: China Group Resources - The workload of the new China/Non-Market
Economy (NME) group is growing rapidly. A significant increase in Chinese companies
requesting new shipper reviews is expected to put a heavy strain on IA. Management should
carefully monitor the workload to determine whether staff resources need to be reallocated to
help handle this group’s workload (see page 21).

On page 24, we offer a number of recommendations to address our concerns.



ITA and its Import Administration concurred with nearly all of our recommendations. ITA’s
Chief Financial Officer and Director of Administration indicated that she welcomed the draft
report and that “the Import Administration is taking steps to address the recommendations and
ITA will continue to make additional improvements.”

ITA’s response, which included IA’s detailed comments on the report, outlined several steps that
have already been taken to strengthen the Import Administration’s management of its
administrative review process. In addition, ITA outlined steps that IA planned to take to address
our concerns. ITA took issue with our recommendation on the need to formulate a standard for
verification reports. While ITA agreed that a standard may be desirable, it indicated that
verification reports vary greatly in methodology and content. Our response to its reply on this
issue can be found on page 14 of the report. ITA also took issue with our finding that IA missed
statutory deadlines that fall on a weekend, although it did agree to issue a public clarification of
its longstanding practice of deferring those statutory deadlines for case determinations to the next
business day. Our response on this issue is available on page 7 of this report.

We discuss ITA’s response to our findings and recommendations in greater detail following each
section in this report. ITA’s entire response to our draft report begins on page 30.




                                                  iv
U.S. Department of Commerce                                                    Final Report IPE-16952

Office of the Inspector General                                                           March 2005 



                                          BACKGROUND 


The mission of Import Administration (IA) is to safeguard American industries and jobs against
unfair trade by determining if foreign products sold in the United States are 1) being subsidized
by foreign governments or 2) sold at less than “normal value,” a practice otherwise known as
“dumping.” IA works to counter these practices by imposing additional customs duties on goods
subsidized or dumped in the United States. The Secretary of Commerce administers the
country’s antidumping (AD) and countervailing duty (CVD) laws pursuant to the Tariff Act of
1930, as amended. The Secretary has delegated to the Assistant Secretary for Import
Administration sole authority to issue AD or CVD determinations based upon the results of
administrative reviews as mandated by AD or CVD orders. (Figure 1 shows the number of AD
and CVD administrative reviews conducted during FYs 2003 and 2004.) More than 80 percent
of administrative reviews conducted in FYs 2003 and 2004 were AD administrative reviews.


Figure 1: Antidumping and Countervailing Duty Administrative Reviews, FYs 2003-2004


                        FY 2003                                      FY 2004
      17 (10.76%)                                   24 (15.09%)




                       141 (89.24%)                                135 (84.91%)




                                      Antidumping         Countervailing

  Source: Import Administration


IA conducts several types of AD administrative reviews, which include annual, new shipper,
sunset, and anticircumvention reviews, as well as reviews based on changed circumstances
reported by U.S. and/or foreign companies. (See Appendix A: Types of Antidumping
Administrative Reviews). The majority of those conducted are annual administrative reviews and
they are the focus of our survey.

AD Investigations. Before an annual administrative review is conducted, an investigation,
which results in an antidumping duty order, must take place. Investigations begin when U.S.
companies or other “interested parties,” such as labor unions and trade associations, petition the
U.S. government to investigate allegations of dumping or subsidization by foreign companies or
governments and to impose antidumping or countervailing duties to counteract these practices.
Companies submit a single petition to IA and the U.S. International Trade Commission (ITC).


                                                    1

U.S. Department of Commerce                                                                Final Report IPE-16952

Office of the Inspector General                                                                       March 2005 



Both IA and ITC conduct independent investigations. IA determines whether dumping has
occurred and calculates a dumping margin as appropriate. ITC determines whether the U.S.
industry is being or may be “materially injured” by the practice. IA always conducts a foreign
verification in an investigation and might visit U.S. companies during this period.

After investigations are complete, the Assistant Secretary for Import Administration may direct
that an AD order be issued if (1) it is determined that dumping has occurred and (2) ITC finds
that the U.S. industry was materially injured or is threatened with material injury. Orders are
issued only if both determinations are affirmative. An order directs U.S. Customs and Border
Protection to require importers to pay cash deposits of the import’s prescribed duty margin
pending a final assessment, which is made following annual reviews. An order allows the U.S.
industry or another interested party (exporter or importer) to request an annual administrative
review, beginning one year after the order is issued for up to five years. (See Appendix B:
Antidumping Investigation Process). If no one requests a review, the prescribed duty margin
from the previous period of review becomes the final duty assessment for the review period.

Annual AD Administrative Review Process. Twelve months after an order is issued, an
interested party may petition IA to conduct a review to determine a final assessment of the duty
margin. After initiating a review, IA analysts send out detailed questionnaires to foreign
companies and study the information returned to arrive at a preliminary determination.4 Analysts
may also conduct verification trips to the home markets of foreign companies and their U.S.
subsidiaries, if any. These trips typically last 1 to 2 weeks and a verification report is issued on
their findings. After about 1 year (barring any extensions as allowed by the statute), IA issues a
final determination, which sets the final assessment of duties for the period under review and
revises the cash deposit rate on future imports. (See Appendix C: Administrative Review
Process).

Each IA determination, preliminary and final, undergoes an internal concurrence process that
includes the IA Chief Counsel’s Office, the DAS for Policy and Negotiations, the DAS for
AD/CVD Operations, and, finally, the Assistant Secretary. A determination takes effect upon the
Assistant Secretary’s signature and is published soon after in the Federal Register.

Annual administrative reviews may continue for another 4 years. After an order has been in place
for five years, IA conducts a separate “sunset” review to determine whether to revoke the order
or continue the order for an additional 5-year period if it concludes that dumping persists (in
conjunction with an affirmative ITC determination of material injury to U.S. industry).

Statutory Deadlines. IA operates under specific statutory deadlines for completing annual AD
administrative reviews. Title 19, Section 1675 of the U.S. Code states that preliminary
determinations for annual administrative reviews must be issued “within 245 days after the last
day of the month [in] which occurs the anniversary of the date of publication of the order or
suspension agreement for which the review under paragraph (1) is requested.” Final

4
  For ease of understanding, we use the term “preliminary determinations”or “final determinations,” which is
terminology used to describe decisions made during an investigation, rather than the term “preliminary results” or
“final results,” which is normally used to describe decisions made during an administrative review.


                                                         2

U.S. Department of Commerce                                                        Final Report IPE-16952

Office of the Inspector General                                                               March 2005 



determinations must be issued “within 120 days after the date on which the preliminary
determination is published.” (See Appendix C: Administrative Review Process).

The statute also provides for extensions of preliminary and final determinations up to an
additional 180 days. Preliminary determinations may be extended a maximum of 120 days. In
such an instance, the final determination may only be extended 60 days. However, if the
preliminary determination extension is less than 120 days, then the difference between that actual
extension and the maximum number of days allowed (120) for a preliminary determination may
be added to the maximum number of days allowed for an extension of a final determination, if
needed.

In FY 2003, 43.3 percent of annual AD administrative reviews received extensions, compared
with 50.5 percent in FY 2004. Figure 2 shows a breakdown of extensions for preliminary and
final determinations during AD administrative reviews in FYs 2003 and 2004.

Figure 2: Extensions Received During FYs 2003 and 2004

                             FY 2003                                     FY 2004

           40              36                             60           52
           35                                             50
           30
           25                          21                 40
           20                                             30                         25
           15                               10            20
           10         6
                                                          10      3                        5
            5
            0                                             0
                    Prelim inary        Final                   Prelim inary           Final

                                            1 – 60 days        61 – 120 days

    Source: Import Administration

IA Document Management. During each review, analysts are required to use IA’s Case
Management Database (CMD) to enter information about the case proceedings. That information
is used by IA to generate internal status reports and to calculate compliance data to report to
Congress. Analysts also are required to archive public, proprietary, and government documents
generated during a review into IA’s Central Records Unit (CRU). IA’s regulations require that
the CRU “maintain an official and public record for each antidumping and countervailing duty
proceeding” and that the public records be made available for public inspection.5

Reorganization. In August 2004, IA reorganized its operations as a part of an overall
International Trade Administration reorganization. IA indicated that this was done, in part, at the
urging of Congress, which had expressed concern about consistency within the bureau, the

5
    19 CFR 351.103(a), 104(b)


                                                    3

U.S. Department of Commerce                                                    Final Report IPE-16952

Office of the Inspector General                                                           March 2005 



effectiveness of its work (particularly in countries such as China), and its investigative fieldwork.
Prior to this, IA had three Deputy Assistant Secretaries (DAS) for Antidumping and
Countervailing Duty (AD/CVD) Operations reporting to the Assistant Secretary. Each DAS
directed three offices with individual computer support teams supporting each DAS group.
Under the new organizational structure, the three former DAS groups now report to one DAS. In
addition, a new China/Non-Market Economy (NME) group, headed by a senior coordinator, was
created out of two of the existing operations offices. IA also created the position of DAS for
Policy and Negotiations (see Figure 3).


 Figure 3: IA Organizational Structure (as of August 2004)




 Source: Import Administration


IA is currently working to sort out issues from its previous organizational structure. One of the
initiatives that it has launched is to improve consistency of certain procedures and policies within
its operations unit. For instance, prior to the reorganization, each DAS group used a different
questionnaire for respondents. Because computer support teams worked for different DAS
groups, each DAS group used a slightly different computer program to calculate dumping
margins. Finally, each DAS group adopted a different schedule to vet margin calculations that
are reviewed by a calculation review panel. There are other inconsistent practices in the bureau,
which we discuss later in the report, that also need the attention of management.



                                                 4

U.S. Department of Commerce                                                   Final Report IPE-16952

Office of the Inspector General                                                          March 2005 



                         OBJECTIVES, SCOPE, AND METHODOLOGY 


The Office of Inspector General conducted this survey in accordance with the Quality Standards
for Inspections issued by the President's Council on Integrity and Efficiency and under the
authority of the Inspector General Act of 1978, as amended, and Departmental Organization
Order 10-13, dated May 22, 1980, as amended.

The primary objectives of the survey were to assess IA’s management of its administrative
review process, and evaluate the bureau’s compliance with applicable statutes and regulations.
Specifically, we sought to:

        Analyze the administrative review process, policies, procedures, and guidance in place,
        and examine compliance with statutory or regulatory requirements which pertain to
        administrative reviews;
        Identify trends or practices related to the administrative review process;
        Develop a profile and review data related to administrative reviews, including total cases,
        timing, deadlines, and country and industry trends, etc;
        Identify management tools and administrative controls used to manage administrative
        reviews; and,
        Identify areas for future OIG program reviews.

We performed our fieldwork for this survey from September 14 to November 3, 2004. To
accomplish our objectives, we interviewed IA managers and team members who conduct
administrative reviews; examined documentation related to IA’s administrative review process,
including laws and regulations and internal procedures; and assessed management and
administrative controls used to manage the administrative review process. We also examined
samples of antidumping reviews produced during FYs 2003 and 2004 by each of IA’s nine
offices in AD/CVD operations. During the review, we briefed IA managers on our work and
initial findings. At the conclusion of our review, we discussed our findings with former
Assistant Secretary for Import Administration and other key IA managers.




                                                 5

U.S. Department of Commerce                                                  Final Report IPE-16952

Office of the Inspector General                                                         March 2005 



                              OBSERVATIONS AND CONCLUSIONS 


I. 	      Most Statutory Deadlines Have Been Met, But Management and Administrative
          Controls Should Be Strengthened To Help Ensure Continued Compliance

We found that IA was meeting most of its statutory deadlines for conducting annual AD
administrative reviews based on our sample with a few minor exceptions for deadlines that fall
on a weekend. While management controls help IA meet statutory deadlines, they are not
documented. In addition, we found administrative control problems with the case records in IA's
Case Management Database (CMD), the primary tracking system for statutory deadlines, and its
performance reports, which are based on information generated from the CMD.

       A. Most Statutory Deadlines Have Been Met

IA managers and analysts indicate that they have a long organizational history of meeting
statutory deadlines for annual administrative reviews. They say that there is no other option than
to meet them. During interviews, we found an organizational culture of compliance, and
managers say no one wants to be the first to miss a statutory deadline, so everyone will do
whatever it takes to meet it.

Our review of a sample of 20 percent of annual AD administrative reviews completed in FY
2003 (19 cases) and FY 2004 (21 cases) revealed that IA met most of their statutory deadlines
for annual reviews. This represented a marked improvement since our 1993 review of IA when
we found that 32 percent of administrative reviews were late. In one instance, we found that IA
issued a determination 10 business days before the required statutory date. We also note four
instances when IA missed the statutory deadline by one or two days. In all four instances, which
do not represent serious deviations, the statutory deadline fell on either a Saturday or a Sunday.
As a result, IA issued its determinations — up to two days beyond the statutory deadline— on
the following business day.

          Figure 4: Sample Size and Deviations of Statutory Deadlines
                                                FY 2003                  FY 2004
          Number of Annual AD
          Administrative Reviews                   97                      108
          Completed
          Number of Cases in
                                                   19                       21
          Sample
          Deviation # 1: Final                  1 day
          Determinations                   (Sunday deadline)
                                                                          1 day
          Deviation # 2: Prelim
                                                                    (Sunday deadline)
                                                                         2 days
          Deviation # 3: Prelim
                                                                   (Saturday deadline)
                                                                         2 days
          Deviation # 4: Prelim
                                                                   (Saturday deadline)
          Source: IA Case Management Database (CMD), 09/30/04


                                                    6
U.S. Department of Commerce                                                    Final Report IPE-16952

Office of the Inspector General                                                           March 2005 





According to IA management, deferring weekend deadlines for case determinations to the next
business day has been an accepted practice for many years. However, this is not an official
policy and is not documented or disclosed on IA’s website. On two of the four occasions when
deviations from statutory deadlines occurred, IA had already applied for the maximum 180 days
extensions allowed by the statute. In addition, IA did not amend its Federal Register notices to
reflect the actual business day that the preliminary or final determination would be made, but
published the original statutory deadline date, which fell on a weekend.

The IA Chief Counsel’s office acknowledged that there is no additional flexibility provided
under a strict interpretation of the statute. The statute uses the terms “within” or “no later than”
when prescribing statutory deadlines. When we debriefed the former IA Assistant Secretary on
our survey findings, he indicated that it would be prudent for IA to notify the public through a
Federal Register notice of its current practice of extending deadlines that fall on the weekend to
the next business day.

RECOMMENDATION: IA should determine how to address the issue of statutory deadlines for
annual AD administrative reviews that fall on weekends.



In response to our draft report, the ITA CFO indicated that IA would issue a public clarification
(either through notice in the Federal Register and/or on its website) of its longstanding practice
of deferring statutory deadlines that fall on a weekend for case determinations to the next
business day. We note that the issuance of a Federal Register notice will formalize its
longstanding practice into policy and provide public notice of the policy. IA’s planned action
will meet the intent of our recommendation. Once we receive a copy of the Federal Register
notice and/or confirmation that the policy is on its website, we will close out the
recommendation.

IA also indicated that it does not agree with our finding that it has missed certain of its statutory
deadlines that fall on a weekend (see ITA response to recommendation # 4). IA emphasized that
there is a general federal policy that allows deadlines falling on weekends or legal holidays to be
extended until the following working day though it did not cite what that policy is. It indicated
that its practice is consistent with IA’s regulation, 19 C.F.R. 351.303(b). We note that this
regulation concerns “all persons submitting documents to the Department for consideration in an
antidumping or countervailing duty proceeding.” It does not address whether the Department,
which serves the public, has the same privileges. Regardless, the actions that IA has outlined
above will meet the intent of our recommendation.


    B. Management and Administrative Controls Should Be Strengthened

We found that management and administrative controls enable the bureau to meet its statutory
deadlines, but they should be strengthened.



                                                  7

U.S. Department of Commerce                                                  Final Report IPE-16952

Office of the Inspector General                                                         March 2005 



Documentation of Management Controls Would Strengthen the Process. During interviews
with IA staff, we found multiple management controls that help the bureau meet its statutory
obligations. First, program managers and office directors provide different degrees of monitoring
such as maintaining project timelines to track cases and being aware of upcoming statutory
deadlines. Second, weekly status reports on upcoming deadlines are generated by senior
management from the CMD and distributed to office directors and program managers. Weekly
status reports are the subject of staff meetings, and the DAS raises any issues on upcoming cases,
if any, prior to deadlines. Finally, special assistants in the office of the DAS for AD/CVD
Operations contact office directors one to two weeks before a statutory deadline to inquire about
the status of a case. All these steps in the process help ensure compliance, but the process is not
documented nor is there any set schedule to present cases for a decision on determinations to the
DAS’ and Assistant Secretary’s offices.

The Office of Management and Budget’s Circular A-123 (revised June 21, 1995) states that “the
documentation for transactions, management controls, and other significant events must be clear
and readily available for examination.” Documenting management controls helps ensure that an
agency’s objectives are being met by clarifying each person’s role and responsibilities and
creating standards for a process. Doing so would increase transparency and allow all
stakeholders in the process to understand their roles and responsibilities.

The AD/CVD Operations Coordinator told us that IA has recently developed a new concurrence
process for case decisions on margin determinations. The coordinator hopes this will advance
internal deadlines for more timely approvals. This is a positive step in standardizing the
concurrence process, but we believe that the internal procedures, roles, and responsibilities for
the entire administrative review process should be documented to increase transparency and
benchmark performance. Such action also will be necessary if IA implements the new document
management software discussed on page 19. New analysts told us that they would like to see
written procedures that guide them through the different phases of an annual administrative
review, including the concurrence process.

RECOMMENDATION: IA should document (1) the management control process for meeting
internal and statutory deadlines and (2) the roles and responsibilities of IA staff involved
throughout the entire annual administrative review process.



In its response, ITA noted that IA Operations recently underwent a major reorganization,
melding three existing office groups into one overseen by a single DAS for Operations. As a
result of those changes, the new DAS for Operations was already aware of the issues identified
by the OIG and had put a process in place to address them. It indicated that a new concurrence
process was established on January 10, 2005. We noted this in our draft report and indicated that
this was a positive step in standardizing the concurrence process. We further noted that the draft
concurrence process document needed to be finalized. We would appreciate an update on the
status of the concurrence process as a part of the action plan.




                                                8

U.S. Department of Commerce                                                      Final Report IPE-16952

Office of the Inspector General                                                             March 2005 



In addition, IA’s comments on our draft report indicated that the DAS for Operations has set up a
procedure to monitor the ability of its offices to meet the deadlines outlined in the concurrence
process. IA also agreed that more explicit information about the roles and responsibilities of
analysts is needed and it will be detailed in its new operations handbook or the revised
antidumping manual. We request further information on the new procedures adopted by the
DAS’ office and a copy of the guidance issued in either the operations handbook or antidumping
manual to describe the roles and responsibilities of analysts.


Case Management Database Sometimes Contains Erroneous and Incomplete Information.
Throughout the antidumping review process, analysts are required to enter case information
(such as the initiation date commencing the annual review and statutory extensions) into IA’s
CMD, which serves as an important administrative control for meeting statutory deadlines.6 By
entering the information and keeping it up-to-date, IA analysts, office directors, and senior
management can keep track of case proceedings so that appropriate and timely approvals are
made. In addition, managers can ensure that cases are being conducted according to established
procedures and project timelines. We observed in our fieldwork that in several instances the
director of the Office of Information Technology was correcting entries to individual case
records and calling analysts to notify them of errors. We note that analysts do not receive formal
training on using and entering information into the CMD, but instead learn how to use the system
from program managers or colleagues. If program managers or colleagues are not using the
system properly, then analysts may perpetuate their errors. (see discussion on training on
page 21). In our sample of cases, we found instances where information was either wrong or
incomplete:

           Incorrect Statutory Deadlines. We found one case where either the program manager
           or case analyst entered a preliminary extension of 115 days and a final extension of 120
           days equaling 235 days, thus exceeding the statutory maximum of 180 days for
           extensions. This caused the CMD to calculate an incorrect statutory deadline.
           Fortunately, the statutory deadline was recalculated (though not by the CMD) when the
           Federal Register notice was issued. The accuracy of the CMD is dependent on the
           accuracy of the information entered. We found two instances in which analysts
           manipulated the CMD by entering unofficial extension days (there is a formal process to
           file extensions requiring DAS approval) to cause the CMD to generate a statutory
           deadline on a weekday rather than a weekend. One analyst entered negative extension
           days (e.g. –13) to cause the system to generate an earlier statutory deadline that would
           fall on a weekday. IA could consider adding parameters to these fields to prevent
           analysts from entering incorrect or unapproved statutory deadline extensions.
           Comments Field. Not all analysts use the comments field to record the status of the
           case, as required by IA management. Some records provide more detailed information
           than others, such as details on rescissions, customs instructions, etc. In the sample cases
           we examined, the comments field in more than half of them was unused. An up-to-date
           record would allow IA management and managers to know the status of a case without


6
    This requirement is part of each analyst’s performance plan.


                                                            9

U.S. Department of Commerce                                                             Final Report IPE-16952

Office of the Inspector General                                                                    March 2005 



        having to track down a case analyst if there are inquiries from the Department or from
        respondents and petitioners of antidumping reviews.
        Computer Backup. Over 92 percent of the CMD records we reviewed did not contain
        the dates when case backup data was sent to IT for archiving.

IA uses information from the CMD for a number of purposes such as creating weekly and
monthly internal tracking reports, calculating the statutory deadlines for case proceedings, and
generating performance data used in the Department’s Annual Performance Plan. If erroneous
information is entered into CMD, the system does not accurately calculate statutory deadlines. In
addition, the system is not as useful when records are not up-to-date.

RECOMMENDATION: IA managers should ensure that analysts (1) enter accurate information into
the CMD; and 2) maintain complete and up-to-date case records in the CMD. These
requirements should be included in an operations handbook.



In its comments on our draft report, ITA indicated that IA agreed with this recommendation. IA
stated that it would draft instructions for updating the CMD that would include the roles and
responsibilities of analysts, team leaders, and managers and would make the instructions
available in the database itself and in IA training materials. A CMD element will also be
included in IA’s future training. We would appreciate receiving a copy of these instructions and,
upon our receipt and review of them, will consider this recommendation to be closed.


Performance Reports Are Not Based on Actual Performance Data. The Government
Performance and Results Act (GPRA) of 1993 requires the heads of all U.S. government
agencies to submit a yearly report on program performance for the previous fiscal year. In the
Department’s FY 2004 Annual Performance Plan, IA’s performance is measured by the
percentage of AD/CVD cases completed within statutory deadlines. In that report, IA reported
that 100% of its cases were completed on time for FY 2002.7 IA managers also told us that IA
has consistently achieved a 100% on-time completion rate. However, we found that IA’s
performance report, which is another important management control tool, is not based on valid
performance data because the CMD does not report actual signature dates for determinations,
only target statutory deadlines. If IA wants to continue using the CMD to generate its
performance reports for the Department's Annual Performance Plan, its system must contain
actual performance data.

CMD records contain fields for preliminary determination and final determination signature
dates calculated based on a review’s initiation date. The system calculates these target dates
based on statutorily mandated timeframes. For instance, a preliminary determination must be
made within 245 days unless there is an extension. But the actual signature date is not recorded.
Rather the CMD data reflects the target dates generated by the system itself and not the dates

7
 The latest available information in the FY 2004 Annual Performance Plan on this performance measure is for
FY 2002.


                                                       10

U.S. Department of Commerce                                                   Final Report IPE-16952

Office of the Inspector General                                                          March 2005 



when determinations are actually signed. As mentioned before, we found four instances where
determinations were signed one or two days after the CMD–determined signature dates. In those
cases, the determinations were signed on the next business day because the statutory date fell on
a weekend. (See discussion on page 6). Therefore, IA managers cannot be certain that
performance data generated by CMD is accurate.

RECOMMENDATION: IA should use actual and not estimated performance data when the bureau
is reporting its performance results for the Department's Annual Performance Plan.



In its response to our recommendation, ITA disagreed with our finding that IA has missed certain
statutory deadlines that fall on a weekend. However, this recommendation did not address the
issue of whether statutory deadlines were missed, but instead dealt with the CMD’s technical
capabilities. Currently, the CMD does not record the actual dates when final determinations are
signed and the system does not compare this date to the statutory deadline date. Instead, the
performance data generated by the system lists the number of administrative reviews conducted
and assumes that all statutory deadlines were met. Therefore, the performance data generated by
the system for use in the Department’s Annual Performance Plan may not be accurate. However,
ITA indicated that IA intends to ensure that the CMD reflects the statutory deadline, actual
deadline (when a statutory deadline falls on a weekend or holiday), and the signature date, if it
differs from the actual deadline. Based on this reply, we presume that IA intends to reprogram
the CMD to record dates for statutory deadlines, actual deadlines, and the signature dates. In
addition, we presume that the system shall compare statutory deadlines to the actual deadlines
and/or signature dates when a performance report is generated for the Annual Performance Plan.
We would appreciate a clarification of IA’s intended action on this recommendation in the action
plan.


Current Status of Litigation Should Be in CMD. On another matter associated with the CMD,
managers are concerned that the IA Chief Counsel's office frequently does not update the status
of litigation on cases in the system. This makes work difficult for analysts working on annual
administrative reviews because litigation on a particular annual administrative review can affect
the case proceedings. The Chief Counsel’s Office indicates it is working on a pilot project to
provide litigation updates and hopes to begin updating these records soon.


II.     Policies, Procedures, and Standards Need Improvement

We found that IA’s antidumping manual is outdated and contains information confusing to both
analysts and the public. In addition, IA lacks a single, internal operations handbook with detailed
guidance on how analysts should conduct their annual AD administrative reviews and on other
internal procedures, processes, reports, and guidelines. Finally, our examination of verification
reports shows marked differences in how the reports appeared in content and format, which
affects the quality of some reports.



                                                11

U.S. Department of Commerce                                                   Final Report IPE-16952

Office of the Inspector General                                                          March 2005 



A.         Antidumping Manual Is Outdated and Causes Confusion

IA’s antidumping manual, which is used by IA analysts and the public, describes major elements
of an annual AD administrative review and provides general information on the AD review
process and how these reviews are conducted. However, since it was published on
January 22, 1998, several policy bulletins and court decisions have been issued, and now the
manual is outdated. Furthermore, team leaders and senior analysts told us the manual is used by
new analysts as a reference source. But since it does not reflect current IA policies and practices,
it is confusing as a reference source. The IA Chief Counsel’s Office told us the manual could be
more misleading than helpful to the public. It is available through IA’s website and its
information management system.8

RECOMMENDATION: IA should update the antidumping manual for its analysts and the public.



Responding to our draft report, IA agreed with our recommendation that its antidumping manual
should be updated to reflect changes in IA practices, although it noted that it was never meant to
be a “how-to” manual for the general public. IA intends to form a group of experienced
individuals within IA to undertake this project. We would appreciate receiving a copy of the
revised antidumping manual when it is available. At such time, we will consider this
recommendation to be closed.


       B. Internal Operations Handbook Should Be Developed

Although its antidumping manual contains general information on annual administrative reviews
and tells the public what they can expect when they file a petition that initiates such reviews, IA
lacks an internal operations handbook with detailed guidelines and systematic instructions on
how analysts and IA conduct an annual administrative review, definitions of staff roles and
responsibilities in the concurrence process, and bureau practices. We could not find any
document containing such information in a concise and easy-to-use format. Instead, analysts said
they access multiple sources of information, such as policy bulletins, guidance contained in IA’s
information management system, advice from managers and colleagues, and different parts of
the antidumping manual, in order to conduct an annual administrative review. In addition, lack
of clear, written guidance on routine problems could lead to inconsistent treatment of similar
situations. They said the time spent to find the information is time consuming and inefficient.
Analysts we spoke with indicate they would benefit from a concise operations handbook for
conducting annual administrative reviews that would incorporate IA's written guidance and
undocumented practices. For example, most analysts knew about the practice of informing
parties of preliminary and final determinations on cases by noon of the next business day though
there is no written guidance on this. We note that an internal operations handbook, which
outlines the bureau’s practices, may be helpful to new analysts.


8
    IA does not have a CVD manual for its analysts or the public.


                                                          12

U.S. Department of Commerce                                                     Final Report IPE-16952

Office of the Inspector General                                                            March 2005 



In addition, analysts would like greater transparency on work rules, such as the criteria IA uses to
grant compensatory time. Analysts say that different managers use different criteria to grant
compensatory time for work conducted outside normal hours at headquarters because the policy
is unclear and subject to individual interpretation. Analysts we interviewed indicate that
compensatory time is never granted on overseas verifications for time worked beyond the normal
8-hour workday.

GAO’s manual on “Standards for Internal Control in the Federal Government” (GAO/AIMD-00
21.3.1) indicates that “internal control activities help ensure that management’s directives are
carried out.” Control activities are defined as “policies, procedures, techniques, and mechanisms
that enforce management’s directives . . ..” An internal operations handbook would improve the
guidance provided to analysts on the organization’s procedures and standards. Without it, new
analysts joining IA do not know the practices of the organization and have to rely on team
members or their program managers for guidance. Lack of written operating procedures also
increases the possibility that policies and procedures will not be consistently observed
throughout the operations division. During our exit conference with senior IA officials, they
suggested that both the internal operations handbook and the publicly available antidumping
manual could be Web-based to make it easier to keep them current.

RECOMMENDATION: IA should develop and maintain an updated internal operations handbook
to formalize current bureau practices into written policies and guidelines and make the handbook
accessible to all employees through IA’s portal on the ITA intranet.



In its response, ITA indicated that it agreed that a web-based internal operations handbook on
current procedures and practices would be extremely useful to all IA employees. According to
IA, its recent effort to develop a revised concurrence process is a first step in this process, and IA
intends to begin working on a plan to develop a complete handbook. Upon our receipt of a copy
of the completed handbook, we will consider this recommendation to be closed.


    C. Standard for Verification Reports Is Needed

Verification reports confirm IA’s findings during an investigation. Our examination of
verification reports of selected cases revealed marked differences in how the reports appeared in
content and format. Analysts said there is no standard for verification reports. IA management
confirmed this and told us each office uses a different template for verification reports. Analysts
say there are also stylistic differences in the reports. We found that two predominant styles
prevail in IA— one is a highly detailed account of the verification and the interaction with the
respondent, and the other is a more abbreviated version with the findings. Analysts say both
versions should include basic information, such as corporate structure and accounting practices.
Of the four reports we examined in detail, one did not contain the basic information noted above.

The lack of a standard results in varying degrees of report quality. Individual preferences of
program managers and office directors determine the report style used. One analyst said when


                                                 13

U.S. Department of Commerce                                                               Final Report IPE-16952

Office of the Inspector General                                                                      March 2005 



she moved from one IA office to another, she had to learn a different format and style of writing
verification reports.

IA is in the process of improving the consistency of its questionnaires, computer programs used
to calculate dumping margins, and how it uses its calculation review panels. Management should
also standardize verification reports, particularly the style and basic content of the report.
Analysts who use the all inclusive verification format might be spending unnecessary time and
effort to produce an overly detailed report. On the other hand, analysts who use the abbreviated
style might not be putting enough details into their verification reports. A weak verification
report could result in an incorrect determination on dumping, which could jeopardize the
interests of U.S. industry. We note that our 1993 report on IA highlighted similar deficiencies in
verification reports, including the lack of quality control and inconsistent standards.9

RECOMMENDATION: IA management needs to formulate a standard for verification reports to
improve the quality and consistency of the reports and enable analysts to complete the reports
more efficiently.



In its comments on our draft report, ITA indicated that IA did not agree with our
recommendation. While IA agrees that a standard format for verification reports may be
desirable, it indicated that not all verifications are the same because the detail and scope of each
report will vary. As such, IA said that it is not possible to have a standard format. However, we
continue to see the benefits of standardizing the format of these reports. While we agree that
each verification report will be different in terms of coverage and content because of the issues in
question, the basic elements of a verification report should be the same for the organization. If a
topic, such as corporate structure and accounting practices, has been covered in a previous
verification, the report can refer readers to the previous report by indicating that there is no
update and cite the year and date of the previous report. A common format would also allow
managers to quickly review verification reports for accuracy and content, and to determine
whether updates are necessary. In addition, a common format would allow for easier
information sharing with managers and analysts from other offices, particularly when much of
IA’s work is based on precedent. Finally, we note that 19 CFR. 351.307(c) requires that each
verification report include “methods, procedures, and results of a verification.” This in effect is a
standard. We request that IA reconsider our recommendation and develop a standard for
verification reports, details of which should be outlined in the action plan.


III.       Management of Official Files Needs Attention

Official files should be maintained according to regulations, which require that the originals be
duplicated and safeguarded. We found that the official files are vulnerable to fire loss. Document
management software recently was purchased to store electronic copies of official file contents.
IA should take appropriate action to implement the system.

9
    IA's Investigations of Steel Industry Petitions, TTD-5541-4-001, OIG, December 1993


                                                         14

U.S. Department of Commerce                                                              Final Report IPE-16952

Office of the Inspector General                                                                     March 2005 





       A. Case Files are Sometimes Incomplete Despite Regulatory Requirements

We found that documents, data sets, and margin calculations were missing from official case
files despite regulatory requirements to maintain them.

Some Documents Are Missing from Case Files. Analysts are required to maintain complete
and accurate records generated during the proceedings of each AD review. Our review of IA
official records, thousands of which are primarily stored in the Central Records Unit (CRU),
found that case files vary greatly in completeness. Disks containing electronic media files, such
as data sets and margin calculations, are considered part of the official files but are stored in the
Office of Information Technology. The majority of the 40 official files in the CRU that we
reviewed were incomplete with respect to containing appropriate internal concurrence records,
Federal Register notices, and decision memoranda. The official files in our sample were
randomly chosen from a list of AD annual administrative reviews, which had been conducted in
FYs 2003 and 2004. The Director of the CRU believes missing documents could have been
mislabeled or misfiled. According to its regulations, IA must maintain an “official record of each
antidumping ... duty proceeding,” to include “government memoranda pertaining to the
proceeding, ... determinations, notices published in the Federal Register, and transcripts of
hearings,” including “material that is public, business proprietary, privileged, and classified.”10
Analysts are responsible for transmitting documents prepared by the Department to the CRU for
archiving.

In the event of a court challenge to a final determination, the official case file is delivered to the
responsible analyst to certify its completeness before it is delivered to the Department of Justice
for litigation. Analysts told us that government documents they had prepared for archiving by the
CRU sometimes are missing when they receive the case file for certification. As a result, they
must spend several days reconstituting the case file with copies of documents. Missing
documents that cannot be reconstituted can negatively impact the government’s defense of an IA
determination. Though there is no IA requirement, analysts often keep unofficial chronological
files as backups (copies of which could be used to reconstitute the case file). Nonetheless, IA
must properly maintain official case files as required by regulations.11

RECOMMENDATION: IA office directors, program managers, and CRU staff should ensure that
official records of annual administrative reviews are complete and accurate.



In its response to our draft report, ITA stated that IA agreed with our recommendation that
official records of its administrative reviews should be complete and accurate. IA stated that
program managers would make certain that analysts are fully aware of their obligations to
maintain complete and accurate records. However, IA did not state precisely how it would
ensure that analysts maintain complete and accurate records. For example, IA managers could

10
     19 CFR 351.104

11
     We did not examine the CRU’s management and administrative controls for archiving documents. 



                                                        15

U.S. Department of Commerce                                                                Final Report IPE-16952

Office of the Inspector General                                                                       March 2005 



certify complete and accurate records as they are sent to the CRU, similar to the procedures
followed when certifying a case file for litigation. We would appreciate clarification on this
issue in the action plan.

Furthermore, IA stated that court record preparation and certification procedures would be
included in a future operations handbook. We commend IA for agreeing to outline these
procedures in its future operations handbook, and we look forward to reviewing them when we
receive the handbook upon its completion.


Policy on Data Sets and Margin Calculations Needs to be Enforced. Data sets and margin
calculations are considered part of the official files. Analysts receive data sets from company
respondents or petitioners and must periodically send data sets to computer support staff to be
included in the official files. The computer support staff sends the data to IA’s IT office for
storage. Analysts must also send copies of their computer programs along with the margin
calculations when preliminary or final determinations on margins are made. However, we found
that IA does not enforce its storage policy. We found that the data sets and margin calculations
were missing in 62.5 percent of 2003 case files and 53.3 percent of 2004 case files in our sample
of 24 cases out of the 40 case records that we reviewed.12 (See discussion on official files on
page 15) The director of the IT office indicates that there is no enforcement mechanism for IA’s
storage policy. She believes that some of the data sets and margin calculations could still be with
computer support staff or the case analyst, though she is not certain.

Though managers and analysts that we interviewed told us that IA has a policy on storing data
sets and margin calculations, we could not find a written copy of the policy nor was it on IA’s
information management system. None of the analysts we interviewed has seen the policy in
writing. They knew of the policy from their program managers or colleagues. We interviewed
one new analyst who has been with the bureau for less than one year who did not know there was
a policy on storing data sets and margin calculations.

If the data sets or margin calculations are missing, the Department’s position could be weakened
in court because it would not be able to fully defend its determination. In the case of remands
when the Department is asked to recalculate margins, IA may be unable to do so without having
to request repeat data sets from all parties involved so it can recreate calculations.

We note that the CMD provides a field where the unique storage number of each data set can be
entered into the system. However, over 92 percent of the samples we examined lacked this
information. (See discussion on the CMD on page 7)

RECOMMENDATION: IA needs to: (1) put its storage policy on data sets and margin calculations
in writing and make it accessible to employees; (2) enforce that storage policy by requiring
program managers to certify that all data sets and margin calculations have been sent to the IT
office before a case can be closed on the CMD; (3) require that the unique storage number of the

12
  We did not include cases that were rescinded because all proceedings are terminated. Therefore, data sets are not
required to be stored and no margin calculations are generated.


                                                        16

U.S. Department of Commerce                                                                Final Report IPE-16952

Office of the Inspector General                                                                       March 2005 



stored data be entered in the CMD; and (4) create an inventory list of data sets and margin
calculations, which is sent periodically to office directors, who should ensure that data is being
stored.



ITA indicated that IA agreed with our recommendation and that IA is in the process of drafting
instructions and procedures for submitting datasets and margin calculations to the IT office. In
addition, IA has revised its “IT Media Submission Form,” which will require a unique storage
number that is assigned by the IT office. The form will require a manager’s initials certifying
that the data has been compiled and is ready for submission. The form will then be saved in the
CMD system and managers will be able to certify that the data has been submitted to the IT
office. The IT office will then record the unique storage number in the CMD. Once this is done,
a report on a specific case or company can be generated by the CMD that will allow managers to
verify that all data and programmatic information have been correctly submitted to the IT office.
IA also indicated that the instructions and procedures on submitting datasets and margin
calculations as well as the new media form will be included in IA training manuals and the
CMD. We suggest that the information also be included in the operations handbook. The
actions outlined above meet the intent of our recommendations. Once we receive written
notification that they have been completed, we will close out this recommendation.


       B. Case Files May Be Vulnerable To Fire

Thousands of official files are kept in IA’s CRU. IA is required to keep these official files for 20
years after a case is closed. For cases that are challenged in court, files must be maintained
indefinitely. In addition, the public version of official files must be kept for 5 years after a case is
closed.13

In 1999, a chemical fire broke out in the Herbert C. Hoover Building (HCHB) in the room next
to the CRU, which was saved by a firewall. Without it, the official files might have been
destroyed. If IA were challenged in court and an official file was not available, the bureau could
be directed by the court to redo all its work on that case, requiring analysts to spend extra time
reconstituting a case file. There are currently no plans to install an automatic fire suppression or
sprinkler system in the present location of the CRU. We found only two fire extinguishers in the
CRU. The planned, multi-year HCHB renovation will include a sprinkler system in the CRU’s
future location. To accommodate the renovations, IA is scheduled to move out of the HCHB in
the spring/summer of 2007 into a temporary facility, which has yet to be determined. According
to the Department’s Renovation Program Office, IA is not expected to move back into the
HCHB until 2017.




13
     Based on ITA’s records retention policy and National Archives and Records Administration guidelines.


                                                         17

U.S. Department of Commerce                                                                Final Report IPE-16952

Office of the Inspector General                                                                       March 2005 



Department Administrative Order (DAO) 205-1 requires that government agencies maintain
backup files for vital records.14 In addition, Federal Preparedness Circular 65 on the continuity
of operations (COOP), dated June 15, 2004, calls for federal agencies to have access to electronic
and hard copies of vital records in case of an emergency. IA does not normally keep duplicates
of its official files with the exception of cases challenged in court. In such cases, the official file
would be duplicated on a CD-ROM15 and stored in the CRU. The IA Chief Counsel’s office also
maintains a separate copy of cases in litigation in the building and, as already mentioned, many
analysts keep unofficial chronological files as backups. No electronic records are made of
documents placed in the official files. Instead, a tracking form generated by IA’s Central
Records Information Management System (CRIMS), is created for each document placed in the
official files; the actual document remains in hard copy form in the CRU and is, therefore,
vulnerable to loss.16

RECOMMENDATION: IA should take appropriate action to comply with federal and departmental
requirements to maintain backup files for vital records. In addition, IA should adopt appropriate
measures to safeguard the official files in the Central Records Unit.



In its response, ITA indicated that IA agreed with our recommendation and stated that it would
consult with the Department’s Office of Building Management (OBM) to explore safeguards for
its vital records, including interim fire suppression measures in the CRU. We would appreciate
receiving an update on the results of its discussions with OBM in its action plan. We concur
with IA that implementation of its new document and records management system, when it
occurs, would likely satisfy this requirement.

IA contends in its response that its budget is insufficient to copy all the official records in the
CRU and to maintain space for a duplicate filing system at an off-site location. However with
regard to backing up its vital records until the new document and records management system
becomes operational, IA should continue to explore options to comply with federal and
departmental vital records requirements. IA should focus on electronically duplicating, for
current reviews forward, those records that cannot be duplicated from other sources (i.e., law
firms, interested parties). Such records, including internal memoranda and margin calculations,
for example, could be copied onto CD-RW format at regular intervals throughout a review and
those disks could be stored off-site. We would appreciate an update on IA’s effort to comply
with these vital records requirements in the action plan.




14
   The definition of vital records includes “those records essential to protect the rights and interests of the 

Department and of individuals affected by its activities.” 

15
   Older court cases are reproduced on microfilm or microfiche. 

16
   Internally generated documents, such as decision memoranda, may be stored electronically on PCs by analysts

though it is not required nor are they considered a part of the official files. 



                                                        18

U.S. Department of Commerce                                                  Final Report IPE-16952

Office of the Inspector General                                                         March 2005 



    C. New Document Management System Needed

In a matter related to IA’s case file management, ITA’s office of the Chief Information Officer
(with IA’s support) has purchased new enterprise software with a document management module
that would significantly improve IA’s workflow and streamline its document and records
management. This system could provide the necessary backup system for official files, allowing
IA to be compliant with Department Administrative Order (DAO) 205-1 and Federal
Preparedness Circular 65. However, we learned that few staff have been assigned to work with
the CIO’s office and the contractor to integrate this system into AD/CVD operations. The first
phase of the system is scheduled to be fully operational by the end of 2005, according to IA’s IT
staff. IA’s expertise is required to document IA staff workflows, roles, and responsibilities,
develop standards for documents, develop an electronic concurrence process, and determine
procedures for storing and managing documents. The director of the IT office has said that, given
its scope, a full-time project manager would likely be needed for the project. She said her current
daily responsibilities do not allow her to provide the necessary support the project needs.

Document management consumes an inordinate amount of IA analysts’ time, particularly when
they must reconstitute incomplete case files. Analysts said they must create both a public and a
business proprietary version of any document they generate, be it a memorandum, verification
report, or a record of the proceedings of a hearing. They also fill out forms with pertinent
information to be entered into CRIMS. Documents intended for the CRIMS are dropped off at
designated locations throughout the Department for CRU staff to pick up and then process. In
addition, analysts spend several days reconstituting incomplete case files to prepare for pending
litigation. According to the CIO’s office, this new software should help streamline these
activities by creating and storing electronic documents that analysts and CRU staff may access,
saving time and expense in printing and document processing, and lessening analysts’
administrative duties so they can focus on core duties.

RECOMMENDATION: IA should take timely and appropriate action to implement its new
document and records management software, which has the potential to lessen the administrative
burden and increase the efficiency of IA analysts.



ITA indicated that IA agreed with our recommendation and stated that it has been anxious to
implement a document and records management system that would “not only better serve its
customers, but also streamline its current paper-driven workflow and document dissemination
processes.”

With the assistance and support of the ITA Office of the Chief Information Officer (OCIO), IA
indicated that it will launch Phase I (pilot project) of the document management system in the
April/May 2005 timeframe. The pilot stage will include the design of a system for antidumping
reviews and then testing by using the system to conduct several actual antidumping reviews. IA
said that the OCIO’s office assigned a project manager to support the project in November 2004.
In addition, the software vendor has provided a project manager to assist in the implementation
of Phase I, which is expected to be completed by October 2005. However, IA indicates that it is


                                                19

U.S. Department of Commerce                                                      Final Report IPE-16952

Office of the Inspector General                                                             March 2005 



concerned that the OCIO may not be able to support IA’s project much past the pilot project
phase. IA notes that its ability to implement the system will be significantly impacted by the
level of technical support provided by the OCIO in the coming year.

While the initial actions taken by IA and the OCIO’s office are a good beginning, we are also
concerned that the document management system may not be implemented if both IA and the
OCIO’s office do not continue to support each other in this effort. As such, this recommendation
will remain open until the system is fully implemented. We request that IA and ITA provide
details in the action plan about when the second and final phase of the project will begin.


IV. Computer Support Needs Restructuring

Under IA’s previous organizational structure, each of the three DASs for Operations had his/her
own two-person computer support team that trained analysts to use the statistical analysis
software used to calculate dumping margins. Each team reported to a different office director
who in turn reported to one of the three DASs. According to managers, this structure was
adopted because each DAS had different views on how the work should be conducted. After the
reorganization, this structure was left intact though all 9 office directors now report to only one
DAS. Staff interviews revealed this structure does not allow the organization to fully leverage its
computer support resources and discourages teamwork. When one team is overwhelmed, it
cannot get full support from other teams because they report to different managers. For instance,
we found that because of a vacancy in Team 3 that has yet to be filled, four offices comprising
112 persons are not receiving adequate computer support (See Figure 5 – We note that offices 8
and 9 comprise the new China group, which has an extremely active portfolio.)

     Figure 5: Computer Support Teams
                                                                               Team 3
                                         Team 1                 Team 2
                                                                               (1 person w/
                                         (2 persons)            (2 persons)
                                                                               one vacancy)
      Offices Supported                     1, 2, and 3              4 and 5     6, 7, 8, and 9
      # of People Supported
                                                 68                    51            112
      under Current Staffing
      # of People Supported
                                                 83                    58            140
      under Full Staffing
     Source: Based on IA’s staffing pattern report dated 09/08/04.

The lack of a single reporting chain for the three computer support teams also has contributed to
differences in the computer programs used to calculate dumping margins, though IA is now
trying to correct this under its consistency initiative. Uniting the computer support teams and
having them report to one manager would also improve consistency in service and support
provided to offices and allow all computer support staff to receive the same training and
development.




                                                        20

U.S. Department of Commerce                                                      Final Report IPE-16952

Office of the Inspector General                                                             March 2005 



RECOMMENDATION: IA should review the current structure of its computer support staff and
determine how the staff can best meet the needs of the organization in light of the bureau’s
recent reorganization.



ITA indicated that IA agreed with our recommendation and that it intended to review the current
staffing levels and assignment of its IT staff. We request that IA provide us with the results of
the review. At that time, we will close out this recommendation.


V.      Training Program for Analysts Should Be Improved

IA presently has three standardized training modules for its new analysts: new analyst training,
verification, and statistical analysis software training. Each analyst we interviewed stated that
she/he has received training for at least one, if not all, training modules. Still, we found that the
training provided could be improved.

According to IA staff, many training classes have been conducted irregularly and often by office
directors and program managers with subject matter expertise, although most do not have
backgrounds in training. Several analysts mentioned being overwhelmed by the information
provided in these training courses so soon after being hired. The senior office director who was
assigned responsibility for IA training in July 2004 indicated that the question of how best to
train new analysts has always been a difficult one. Some office directors believe providing
training in the beginning rather than later is better. Others disagree. In addition, the senior office
director says it is difficult to pull people for training if they are working to meet statutory
deadlines. She is exploring some ideas of how to improve the program, such as conducting focus
groups to identify the needs of new analysts and analysts who have been with the bureau one or
two years. But she has no dedicated staff to help her develop and improve the training programs.

Analysts’ suggestions for improving training include:

        Incorporating an accounting course into the new analyst training so that analysts with no
        accounting background have the knowledge to conduct verifications;
        Providing new analyst training incrementally (for example: upon arrival, after 3 months,
        6 months and so on) so new analysts are not overwhelmed with information when they
        start; and,
        Offering cultural sensitivity training to familiarize analysts with different cultures and
        foreign business practices.

The third suggestion stems from the fact that some analysts have witnessed rude or inappropriate
behavior such as derogatory remarks made by more experienced analysts conducting foreign
verifications. New analysts said they were embarrassed by such actions, which do not serve the
best interests of the U.S. government.




                                                  21

U.S. Department of Commerce                                                  Final Report IPE-16952

Office of the Inspector General                                                         March 2005 



IA should also consider providing CMD training for new analysts. We understand that some
office directors have requested formal CMD training for their staff, but this is done on an ad hoc
basis.

Analysts with more experience also expressed concern about career development training and
opportunities. None of the analysts we interviewed had ever heard of an individual development
plan (IDP), much less completed one. In many federal agencies, an IDP is filled out annually by
employees to help them and their supervisors identify professional development objectives and
the training needed to achieve them.

Some bureaus within Commerce and other agencies have adopted a systematic approach to
training by identifying essential core skills or competencies of staff by grade and developing
training programs that match the desired skill sets. The same can be done with career
development, such as leadership training. As staff advance in grade, additional career
development training can be added.

We did find one office— the China/NME group— which provides some professional
development training. The unit’s coordinator has made a concerted effort to provide specialized
training courses pertinent to China reviews. As a result, analysts in this unit are able to take
courses in Chinese languages and China’s financial system. In addition, the coordinator is
working on a new course on calculating margins from NME countries.

IA management is required by statute, as are all heads of federal agencies, to “...establish,
operate, maintain, and evaluate a program or programs, and a plan or plans thereunder, for the
training of (its) employees ... in order to assist in achieving an agency’s mission and performance
goals.”17 In addition, IA is mandated to establish “a comprehensive management succession
program to provide training to employees to develop managers for the agency.”18

Inadequate training might negatively impact IA’s operations. For example, it could lead to
programmatic inefficiencies, as program managers and/or team leaders would be required to
spend more time than necessary training new analysts instead of managing their projects. In
addition, employee turnover may rise if analysts find themselves without the skills needed to
perform their duties or to enhance their career development goals. We discussed IA’s training
needs with ITA’s Chief Financial Officer who indicated that the Manufacturing and Services
Unit has developed a knowledge-based on-line training program that may be of interest to IA. In
addition, she indicated that there may be funds available to assist IA in the development of a
similar on-line training system. We note that there are currently 87 vacancies within IA. This is
due partly to newly created positions for new program initiatives, such as the China/Non-Market
Economy (NME) group, quality initiatives, and the Customs liaison unit. The development of
some type of training program could help shorten the learning curve for new analysts as these
vacancies are filled (see Figure 6).



17
     5 USC 4103(a)
18
     5 USC 4121(1)


                                                22

U.S. Department of Commerce                                                      Final Report IPE-16952

Office of the Inspector General                                                             March 2005 



Figure 6: Number of Vacancies in IA in FY 2005
             Unit                    Current Staff                             Vacancies
 Office of the Assistant
                                          25                                         5
 Secretary
 DAS for Policy and
                                         91.5                                      25.5
 Negotiations
 DAS for AD/CVD
                                        230.5                                      50.5
 Operations
 DAS for Textiles                         32                                        4
 Other *                                  13                                        2
 Total                                   392                                        87
 * Total of Statutory Import Programs and Foreign Trade Zones Staffs
Source: Import Administration, January 2005

RECOMMENDATION: IA should reassess its approach to developing training programs, including
career development, to ensure that the needs of the analysts are met.



In its comments on our draft report, ITA indicated that IA agreed with our recommendation and
stated that its training program needs to be examined carefully and improved. As we noted in
our draft report, training is a critical issue for IA in light of the large number of recent vacancies
in its operations division. We acknowledge IA’s efforts in considering a number of options to
fulfill our recommendation, such as dedicating certain staff members to assist in developing a
training program or hiring an outside consultant to help develop an ongoing program. In
addition, as noted in our draft report, we encourage IA to explore the option of working with
ITA’s Office of the Chief Financial Officer to develop a web-based training module for new
analysts. We would appreciate receiving an update of IA’s efforts to improve its training
program for new and current analysts in the action plan.


Issues on the Horizon. China Group Resources - We note the growing workload of the new
China/Non-Market Economy (NME) group. In 2004, 36 percent of annual administrative
reviews involved China. Managers expect the number of China cases to continue to grow. In the
short term, they believe there is enough staff to do the work, but the situation may quickly
change if new cases warrant more resources than usual. Managers cite the recent China furniture
case that involved more than 100 companies and consumed the resources of an entire program
unit. The significant increase in Chinese companies requesting new shipper reviews is also
putting a strain on resources. This workload issue requires continuing management scrutiny to
determine whether staff resources need to be reallocated to help handle this group’s workload.




                                                      23

U.S. Department of Commerce                                                    Final Report IPE-16952

Office of the Inspector General                                                           March 2005 



                                    RECOMMENDATIONS 


We recommend that the Acting Assistant Secretary for Import Administration ensure that the
following actions are taken:

1. 	 IA should determine how to address the issue of statutory deadlines for annual AD
     administrative reviews that fall on weekends. (see page 6)

2. 	 IA should document (1) the management control process for meeting internal and statutory
     deadlines and (2) the roles and responsibilities of IA staff involved throughout the entire
     antidumping review process. (see page 7)

3. 	 IA managers should ensure that analysts (1) enter accurate information into the CMD; and 2)
     maintain complete and up-to-date case records in the CMD. These requirements should be
     included in an operations handbook. (see page 7)

4. 	 IA should use actual and not estimated performance data when the bureau is reporting its
     performance results for the Department's Annual Performance Plan. (see page 7)

5. 	 IA should update the antidumping manual for its analysts and the public. (see page 12)

6. 	 IA should develop and maintain an updated internal operations handbook to formalize
     current bureau practices into written policies and guidelines and make the handbook
     accessible to all employees through IA’s portal on the ITA intranet. (see page 12)

7. 	 IA management needs to formulate a standard for verification reports to improve the quality
     and consistency of the reports and enable analysts to complete the reports more efficiently.
     (see page 13)

8. 	 IA office directors, program managers, and CRU staff should ensure that official records of
     annual administrative reviews are complete and accurate. (see page 15)

9. 	 IA needs to: (1) put its storage policy on data sets and margin calculations in writing and
     make it accessible to employees; (2) enforce that storage policy by requiring program
     managers to certify that all data sets and margin calculations have been sent to the IT office
     before a case can be closed on the CMD; (3) require that the unique storage number of the
     stored data be entered in the CMD; and (4) create an inventory list of data sets and margin
     calculations, which is sent periodically to office directors, who should ensure that data is
     being stored. (see page 15)

10. IA should take appropriate action to comply with federal and departmental requirements to
    maintain backup files for vital records. In addition, IA should adopt appropriate measures to
    safeguard the official files in the Central Records Unit. (see page 17)

11. IA should take timely and appropriate action to implement its new document and records
    management software, which has the potential to lessen the administrative burden and
    increase the efficiency of IA analysts. (see page 19)

                                                 24

U.S. Department of Commerce                                                 Final Report IPE-16952

Office of the Inspector General                                                        March 2005 





12. IA should review the current structure of its computer support staff and determine how the
    staff can best meet the needs of the organization in light of the bureau’s recent
    reorganization. (see page 20)

13. IA should reassess its approach to developing training programs, including career
    development, to ensure that the needs of the analysts are met. (see page 21)




                                               25

U.S. Department of Commerce                                                        Final Report IPE-16952

Office of Inspector General                                                                   March 2005 



                                                APPENDIXES 


                   APPENDIX A: Types of Antidumping Administrative Reviews1




                                                       A review conducted to determine the
                                                       amount of antidumping duties to assess on
      Antidumping Review                               imports during a specific period of review
                                                       and establish new deposit rates for future
                                                       imports.
                                                       An inquiry conducted to determine whether
      Anticircumvention Review                         imports are circumventing an antidumping
                                                       order.
                                                       A review undertaken by Import
                                                       Administration to determine whether
      Changed Circumstances Review                     changed circumstances warrant its review of
                                                       certain prior affirmative antidumping.

                                                       A review whereby so-called “new shippers''
                                                       can obtain their own individual dumping
                                                       margin on an expedited basis. In general, a
                                                       new shipper is an exporter or producer that
      New Shipper Review                               did not export, and is not affiliated with an
                                                       exporter or producer that did export, to the
                                                       United States during the period of the
                                                       investigation.
                                                       A review conducted on the fifth anniversary
                                                       of an antidumping order to determine
                                                       whether revoking an existing order would be
                                                       likely to lead to continuation or recurrence
      Sunset Review                                    of the dumping. If continuation or
                                                       recurrence is found unlikely, the order is
                                                       revoked. If not, the order can be extended
                                                       for another five years.

      Source: Import Administration, 19 CFR 351




1
    Tariff Act of 1930, as amended, and 19 CFR 351.


                                                      26

                                                                                                                                                                                                   Office of Inspector General
                                                                                                                                                                                                   U.S. Department of Commerce




             U.S.
           Industry             ITC Preliminary            IA Preliminary              IA Final                    ITC Final                IA
          Petitions to          Determination 1            Determination 2           Determination               Determination            Issues
          IA and ITC                                                                                                                       Order



        IA has 20 days            45 days from               140 days from           75 days from        45 days from IA     Usually published
        to initiate an            petition                   initiation 3            IA Preliminary      Final               within 7 days of
        investigation                                                                Determination 3     Determination       the signature date




27 

                                                                                                                             of the order
                                                                                                                             267 days
                                                                                                                             from
                                                                                                                             initiation


           1
               The International Trade Commission (ITC) determines whether U.S. industry has been “materially injured” by foreign imports.
           2
               A verification is conducted after a preliminary determination during this phase of the process.
                                                                                                                                                   APPENDIX B: Antidumping Investigation Process




           3
               Extensions are allowed for IA preliminary and final determinations.


       Source: Import Administration, OIG Analysis
                                                                                                                                                                                                              March 2005

                                                                                                                                                                                                   Final Report IPE-16952

                                                                                                                                                                                               Office of Inspector General




                                   Request            Initiation and                                                            Publication of
                                                                                                                                                                                               U.S. Department of Commerce




                                                                             IA Preliminary               IA Final
                IA Issues            for               Publication                                     Determination              IA Final
                                   Review              of Notice to          Determination                                      Determination
                  Order                                                      of Review 1, 4             of Review 4
                                                          Review                                                                 of Review




                                 Industry (U.S. or    30 days from            245 days from             372 days from           Usually
                                 foreign) may         request                 request 2                 request 2,3             published




28 

                                 request a review                                                                               within 7 days of
                                 of the current                                                      Duty is assessed           the signature
                                 deposit rate 12                                                     for the previous period    date
                                 months after the                                                    reviewed.
                                 order is issued
                                                                                                     Deposit rate is set for
                                                                                                     the following 12 months.
          1
              A verification is conducted prior to the preliminary determination during this phase of the review.
                                                                                                                                                   APPENDIX C: Administrative Review Process




          2
              Statutory deadlines. Extensions totaling up to 180 days are permitted for IA preliminary and final determinations. In 

              FY 2003, 43.3 percent of AD administrative reviews were extended, compared with 50.5 percent in FY 2004. 

          3
              Assumes the notice of preliminary determination is published 7 days after the signature date.
          4
              For ease of understanding, we use the term preliminary or final determination versus preliminary or final results.

       Source: Import Administration, 19 CFR 351.702, and OIG Analysis
                                                                                                                                                                                                          March 2005

                                                                                                                                                                                               Final Report IPE-16952

U.S. Department of Commerce                                      Final Report IPE-16952

Office of Inspector General                                                 March 2005 



                              APPENDIX D: Acronyms



       AD                      Antidumping
       CFR                     Code of Federal Regulations
       CMD                     Case Management Database
       CRIMS                   Central Records Information Management System
       CRU                     Central Records Unit
       CVD                     Countervailing Duty
       DOC                     Department of Commerce
       GPRA                    Government Performance and Results Act
       IA                      Import Administration
       NME                     Non-Market Economy
       USC                     United States Code




                                       29

U.S. Department of Commerce                                     Final Report IPE-16952

Office of the Inspector General                                            March 2005 



                                  APPENDIX E: Agency Response




                                              30

U.S. Department of Commerce             Final Report IPE-16952

Office of the Inspector General                    March 2005 





                                  31

U.S. Department of Commerce             Final Report IPE-16952

Office of the Inspector General                    March 2005 





                                  32

U.S. Department of Commerce             Final Report IPE-16952

Office of the Inspector General                    March 2005 





                                  33

U.S. Department of Commerce             Final Report IPE-16952

Office of the Inspector General                    March 2005 





                                  34

U.S. Department of Commerce             Final Report IPE-16952

Office of the Inspector General                    March 2005 





                                  35

U.S. Department of Commerce             Final Report IPE-16952

Office of the Inspector General                    March 2005 





                                  36

U.S. Department of Commerce             Final Report IPE-16952

Office of the Inspector General                    March 2005 





                                  37

